TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                      Fiscal Year 2008 Statutory Review of
                       Restrictions on Directly Contacting
                                   Taxpayers


                                          March 27, 2008

                              Reference Number: 2008-40-090




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                    DEPARTMENT OF THE TREASURY
                                                          WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                   March 27, 2008


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION

 FROM:                           Michael R. Phillips
                                 Deputy Inspector General for Audit

 SUBJECT:                        Final Audit Report – Fiscal Year 2008 Statutory Review of Restrictions
                                 on Directly Contacting Taxpayers (Audit # 200840024)

 This report presents the results of our review to determine whether the Internal Revenue Service
 (IRS) complied with legal guidelines addressing the direct contact of taxpayers and their
 representatives, as set forth in Internal Revenue Code (I.R.C.) Sections (§§) 7521(b)(2) and (c).
 The Treasury Inspector General for Tax Administration is statutorily required to conduct this
 audit.

 Impact on the Taxpayer
 The Omnibus Taxpayer Bill of Rights1 created a number of safeguards to protect taxpayers being
 interviewed by an IRS employee as part of an examination or investigation. IRS employees are
 required to stop an interview if the taxpayer requests to consult with a representative and may not
 bypass a representative without supervisory approval. Neither the IRS nor we could readily
 identify cases in which the taxpayer requested a representative or the IRS improperly bypassed
 the representative. Of the limited number of complaints received related to this issue, there were
 none in which the facts of the case indicated the IRS employee did not comply with the
 taxpayer’s request to consult with a representative or improperly bypassed the representative.




 1
     Pub. L. No. 100-647, 102 Stat. 3730 (1988) (codified as amended in scattered sections of 5 U.S.C. and 26 U.S.C.).
                      Fiscal Year 2008 Statutory Review of Restrictions on
                                 Directly Contacting Taxpayers




Synopsis
IRS employees are required by the direct contact provisions of I.R.C. §§ 7521(b)(2) and (c) to:
   •   Stop a taxpayer interview whenever a taxpayer requests to consult with a representative.
   •   Obtain their immediate supervisor’s approval to contact the taxpayer instead of the
       representative if the representative is responsible for unreasonably delaying the
       completion of an examination or investigation.
The IRS Internal Revenue Manual provides employees with guidance to help ensure compliance
with the direct contact provisions. In addition, the IRS has informed taxpayers of their rights
through various publications. However, we could not determine whether the IRS complied with
I.R.C. §§ 7521(b)(2) and (c) requirements when directly contacting taxpayers and their
representatives. IRS management information systems do not separately record or monitor direct
contact requirements, and there is no legal requirement for the IRS to do so. Further, we do not
recommend the creation of a separate IRS system to track those cases involved with direct
contact issues. Accordingly, we made no recommendations in this report.

Response
Because we made no specific recommendations in this report, comments from the IRS were not
required.
Please contact me at (202) 622-6510 if you have questions or Michael E. McKenney, Assistant
Inspector General for Audit (Wage and Investment Income Programs), at (202) 622-5916.




                                                                                                  2
                               Fiscal Year 2008 Statutory Review of Restrictions on
                                          Directly Contacting Taxpayers




                                             Table of Contents

Background ............................................................................................................Page 1

Results of Review .................................................................................................Page 3
          The Internal Revenue Manual Provides Employees With Guidance
          to Help Ensure Compliance With the Direct Contact Provisions ...................Page 3
          The Internal Revenue Service Has Informed Taxpayers of Their
          Rights Through Various Publications.............................................................Page 3
          Compliance With Statutory Requirements for Restrictions on
          Directly Contacting Taxpayers Cannot Be Determined .................................Page 4

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ..........................Page 6
          Appendix II – Major Contributors to This Report ..........................................Page 8
          Appendix III – Report Distribution List .........................................................Page 9
         Fiscal Year 2008 Statutory Review of Restrictions on
                    Directly Contacting Taxpayers




                    Abbreviations

I.R.C.        Internal Revenue Code
IRS           Internal Revenue Service
RRA 98        Restructuring and Reform Act of 1998
                          Fiscal Year 2008 Statutory Review of Restrictions on
                                     Directly Contacting Taxpayers




                                            Background

The Omnibus Taxpayer Bill of Rights1 created a number of safeguards to protect taxpayers being
interviewed by an Internal Revenue Service (IRS) employee as part of an examination or
investigation. Specifically, IRS employees are required by the direct contact provisions of
Internal Revenue Code (I.R.C.) Sections (§§) 7521(b)(2) and (c) to:
    •   Stop a taxpayer interview whenever a taxpayer requests to consult with a representative.
    •   Obtain their immediate supervisor’s approval to contact the taxpayer instead of the
        representative if the representative is responsible for unreasonably delaying the
        completion of an examination or investigation.
A taxpayer can file a civil suit against the IRS if an IRS employee intentionally disregards these
provisions by denying a taxpayer the right to appropriate representation.
On July 22, 1998, the President signed into law the IRS Restructuring and Reform Act of 1998
(RRA 98),2 which required the IRS to revise Your Rights as a Taxpayer (Publication 1) to inform
taxpayers of their rights (1) to be represented at interviews and (2) to suspend an interview
pursuant to I.R.C. § 7521(b)(2). In addition, Congress
added I.R.C. § 7803(d)(1)(A)(ii) to the RRA 98, which             The Treasury Inspector General
requires the Treasury Inspector General for Tax                       for Tax Administration is
Administration to annually evaluate the IRS’ compliance          required to annually evaluate the
with the direct contact provisions. Senate Committee on           IRS’ compliance with the direct
                                                                        contact provisions of
Finance Report 105-174 (dated April 22, 1998), related to           I.R.C. §§ 7521(b)(2) and (c).
RRA 98 § 3502 provision, stated that Congress believes
taxpayers should be more fully informed of their rights to
representation in dealing with the IRS, and that those
rights should be respected.
This review was performed in the offices of the acting IRS Commissioner and the National
Taxpayer Advocate in Washington, D.C., and in the Small Business/Self-Employed Division
Headquarters in New Carrollton, Maryland, during the period October 2007 through


1
 Pub. L. No. 100-647, 102 Stat. 3730 (1988) (codified as amended in scattered sections of 5 U.S.C. and 26 U.S.C.).
2
 Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).




                                                                                                           Page 1
                      Fiscal Year 2008 Statutory Review of Restrictions on
                                 Directly Contacting Taxpayers



February 2008. We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective. Detailed
information on our audit objective, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




                                                                                       Page 2
                      Fiscal Year 2008 Statutory Review of Restrictions on
                                 Directly Contacting Taxpayers




                                Results of Review

The Internal Revenue Manual Provides Employees With Guidance to
Help Ensure Compliance With the Direct Contact Provisions
Following enactment of the Omnibus Taxpayer Bill of Rights in 1988, the IRS began to establish
written procedures regarding taxpayer interviews for employees to follow and planned to
enhance those procedures as needed. The initial procedures required employees to meet the legal
guidelines imposed by the direct contact provisions and to document the related actions in the
taxpayer’s case file. Enactment of RRA 98 further enhanced the procedures and guidelines
related to the direct contact issues.
In response to prior Treasury Inspector General for Tax Administration reports, the IRS updated
the procedures and guidelines for directly contacting taxpayers and their representatives in its
Internal Revenue Manual. In addition, the IRS assigned group managers responsibility for
monitoring employee compliance with the direct contact provisions. The group managers are
required to address this issue during group meetings, case reviews, on-the-job visits, and
taxpayer/representative inquiries to ensure employees fully comply with the law.

The Internal Revenue Service Has Informed Taxpayers of Their Rights
Through Various Publications
The IRS uses Publication 1 as the main document to keep taxpayers informed of their rights and
to explain the examination, collection, appeals, and refund processes. Taxpayers are provided a
copy of Publication 1 prior to scheduled interviews with the IRS. Prior to December 1998,
taxpayer rights during IRS interviews were not specifically mentioned in Publication 1. The
RRA 98 required the IRS to revise Publication 1 to include information concerning taxpayers’
rights to be represented at interviews with the IRS and to suspend an interview pursuant to
I.R.C. § 7521(b)(2). The IRS has also included information on these rights in other publications,
such as:
   •   Your Federal Income Tax (Publication 17).
   •   Tax Guide for Small Business (Publication 334).
   •   Examination of Returns, Appeal Rights, and Claims for Refund (Publication 556).
   •   The Examination Process (Publication 3498).



                                                                                          Page 3
                         Fiscal Year 2008 Statutory Review of Restrictions on
                                    Directly Contacting Taxpayers



As a result, taxpayers may be better informed of their rights during interviews through the
expanded information avenues made available by the IRS.

Compliance With Statutory Requirements for Restrictions on Directly
Contacting Taxpayers Cannot Be Determined
We could not determine whether the IRS complied with I.R.C. §§ 7521(b)(2) and (c)
requirements when directly contacting taxpayers and their representatives. Neither the IRS nor
we could readily identify cases in which the taxpayer requested a representative or the IRS
improperly bypassed the representative.
Current IRS management information systems do not separately record or monitor cases in
which taxpayers had requested to consult with a representative or in which IRS employees
bypassed taxpayer representatives and contacted the taxpayers directly. There is no legal
requirement for the IRS to record or monitor cases involving these two procedures.
One way to identify possible violations of these taxpayer rights is to determine if taxpayers have
complained that an IRS employee intentionally denied them their right to representation or
bypassed representatives without proper approval. The Taxpayer Advocate Management
Information System4 and the IRS Commissioner’s Information Tracking System5 do not track
these types of complaints. However, taxpayer complaints that allege IRS employees bypassed
their representatives and contacted them directly are tracked on the Performance and Results
Information System6 by the Treasury Inspector General for Tax Administration Office of
Investigations. The Office of Investigations closed four direct contact complaint cases between
October 2006 and September 2007. In all four cases, the Office of Investigations determined the
facts did not support the opening of a criminal investigation for any violation of the law.



4
  The Taxpayer Advocate Management Information System is an electronic database and case inventory control
system used by Taxpayer Advocate Service function employees.
5
  The Information Tracking System is a system used by the IRS to control and track information and
correspondence.
6
  The Performance and Results Information System is a management information system that provides the Treasury
Inspector General for Tax Administration with the ability to manage complaints received and investigations
initiated.




                                                                                                       Page 4
                      Fiscal Year 2008 Statutory Review of Restrictions on
                                 Directly Contacting Taxpayers



This is the tenth year in which we have reported our inability to give an opinion on the IRS’
compliance with the I.R.C. restrictions on direct contact. Although the IRS does not
systemically monitor its employees’ compliance with the direct contact provisions, we believe
the procedures and guidelines it has established and enhanced over the years adequately address
the requirements of the law. We do not recommend the creation of a separate tracking system
and are making no recommendations in this report.




                                                                                         Page 5
                         Fiscal Year 2008 Statutory Review of Restrictions on
                                    Directly Contacting Taxpayers



                                                                                              Appendix I

         Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the IRS complied with legal
guidelines addressing the direct contact of taxpayers and their representatives as set forth in
I.R.C. §§ 7521(b)(2) and (c). To accomplish this objective, we:
I.      Obtained confirmation from the Small Business/Self-Employed Division that the IRS
        neither has, nor plans to implement, a system or process to identify or track cases in
        which taxpayers have requested to consult with a representative or in which an IRS
        employee bypassed a representative.
II.     Interviewed various IRS and Treasury Inspector General for Tax Administration
        personnel responsible for the Taxpayer Advocate Management Information System,1 the
        Information Tracking System,2 and the Performance and Results Information System3 to
        determine if there is a system to track taxpayer complaints relating to violations of the
        direct contact provisions of the law.
        A. Identified four direct contact cases on the Performance and Results Information
           System closed by the Treasury Inspector General for Tax Administration Office of
           Investigations during the period October 1, 2006, through September 30, 2007.
        B. Obtained and reviewed the closed Office of Investigations case files to determine
           their validity and what actions were taken by the IRS as a result of the complaints and
           investigations.
III.    Obtained information on the actions taken by the IRS in response to I.R.C. §§ 7521(b)(2)
        and (c) to determine the impact on IRS programs.
        A. Reviewed all prior Treasury Inspector General for Tax Administration audit reports
           for the statutory direct contact reviews and summarized the audit results,
           recommendations, and corrective actions taken by the IRS.




1
  The Taxpayer Advocate Management Information System is an electronic database and case inventory control
system used by Taxpayer Advocate Service function employees.
2
  The Information Tracking System is a system used by the IRS to control and track information and
correspondence.
3
  The Performance and Results Information System is a management information system that provides the Treasury
Inspector General for Tax Administration with the ability to manage complaints received and investigations
initiated.
                                                                                                       Page 6
               Fiscal Year 2008 Statutory Review of Restrictions on
                          Directly Contacting Taxpayers



B. Reviewed historic and current Internal Revenue Manual sections to identify any
   updates made in response to I.R.C. §§ 7521(b)(2) and (c).
C. Reviewed IRS.gov (the public IRS Internet site) and related IRS publications to
   identify how the IRS informs taxpayers of its prohibition against directly contacting
   taxpayers in certain situations.




                                                                                   Page 7
                     Fiscal Year 2008 Statutory Review of Restrictions on
                                Directly Contacting Taxpayers



                                                                           Appendix II

                Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Marybeth H. Schumann, Director
Bryce Kisler, Audit Manager
Kristi Larson, Lead Auditor
Tanya Adams, Senior Auditor




                                                                                    Page 8
                     Fiscal Year 2008 Statutory Review of Restrictions on
                                Directly Contacting Taxpayers



                                                                          Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Acting Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Director, Collection, Small Business/Self-Employed Division SE:S:C
Director, Communications, Government Liaison, and Disclosure, Small Business/Self-Employed
Division SE:S:CLD
Director, Examination, Small Business/Self-Employed Division SE:S:E
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC




                                                                                    Page 9
